Report No. D-2011-048                        March 7, 2011




     American Recovery and Reinvestment Act Projects-
        "Facility Energy Improvements" and "Wind
             Turbine and Photovoltaic Panels"
                 at Fort Wainwright, Alaska
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DPW                           Directorate of Public Works
DUSD (I&E)                    Deputy Under Secretary of Defense
                                 (Installations and Environment)
ECIP                          Energy Conservation Investment Program
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
IPLC                          Intelligent Parking Lot Controller
OMB                           Office of Management and Budget
SIR                           Savings-to-Investment Ratio
TAFS                          Treasury Appropriation Fund Symbol
USACE                         United States Army Corps of Engineers
                                                                                                          l
                                                                                                          I




                                         INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE
                                          400 ARMY NAVY DRIVE
                                     ARLINGTON, VIRGINIA 22202-4704




                                                                                          March 7, 2011

MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE
                  (INSTALLATONS AND ENVIRONMENT)
               COMMANDING GENERAL, U.S. ARMY CORPS OF
                  ENGINEERS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: American Recovery and Reinvestment Act Projects-"Facility Energy
         Improvements" and "Wind Turbine and Photovoltaic Panels" at Fort
         Wainwright, Alaska (Report No. D-2011-048)

We are providing this report for your information and use. We determined that personnel at Fort
Wainwright Directorate of Public Works and United States Army Corps of Engineers-Alaska District
properly planned the "Facility Energy Improvements" project. Army personnel did not ensure that the
"Wind Turbine and Photovoltaic Panels" project was adequately planned; however, the Army cancelled
the project from the Recovery Act program. We performed this audit in response to the requirements of
Public Law 111-5, "American Recovery and Reinvestment Act of2009" (Recovery Act), February 17,
2009 . We considered management comments on a draft of the report in preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive 7650.3 and left no
unresolved issues. Therefore, we do not require additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Michael A. Joseph at
(757) 872-4698.




                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2011-048 (Project No. D2009-D000LF-0245.002)                          March 7, 2011


              Results in Brief: American Recovery and
              Reinvestment Act Projects-“Facility Energy
              Improvements” and “Wind Turbine and
              Photovoltaic Panels” at Fort Wainwright,
              Alaska
                                                  project. Finally, USACE-Alaska District
What We Did                                       personnel ensured that the contractor
Our overall objective was to evaluate             maintained transparency by reporting this
DoD’s implementation of the “American             project to the www.recovery.gov Web site.
Recovery and Reinvestment Act of 2009,”
February 17, 2009 (Recovery Act).                 Army personnel did not ensure the “Wind
Specifically, we reviewed the planning,           Turbine and Photovoltaic Panels” project
funding, initial project execution, and           was properly planned. This occurred
tracking and reporting phases of the two          because personnel at Fort Wainwright
Energy Conservation Investment Program            Directorate of Public Works failed both to
(ECIP) projects, “Facility Energy                 include all costs necessary to complete the
Improvements” and “Wind Turbine and               project and to complete necessary wind
Photovoltaic Panels” at Fort Wainwright,          studies prior to submitting the project for
Fairbanks, Alaska. We determined whether          consideration. However, cancellation of
Army personnel complied with the                  the project from the Recovery Act program
Recovery Act requirements, Office of              and subsequent reprogramming action
Management and Budget                             undertaken by the Army ECIP manager
Memorandum M-09-10, “Initial                      were appropriate. As a result, the Army
Implementing Guidance for the American            made $1.5 million in Recovery Act funds
Recovery and Reinvestment Act of 2009,”           available for other Army Recovery Act
February 18, 2009, and subsequent related         ECIP projects.
guidance.
                                                  What We Recommend
What We Found                                     Because Recovery Act project “Wind
Fort Wainwright Directorate of Public             Turbine and Photovoltaic Panels” was
Works and United States Army Corps of             cancelled during the audit, this report
Engineers (USACE)-Alaska District                 contains no recommendations.
properly planned and supported the
“Facility Energy Improvements” project to         Management Comments
ensure DoD’s appropriate use of Recovery          and Our Response
Act funds. USACE-Alaska District                  The Director, Facilities Energy, Deputy
received funds in a timely manner and             Under Secretary of Defense (Installations
consistent with Office of Management and          and Environment) agreed with the report
Budget guidance. USACE-Alaska District            and potential monetary benefits of
adequately performed initial project              $1.5 million, and his comments are
execution of the “Facility Energy                 responsive. No further comments are
Improvements” project and properly                required.
reduced its scope in order to award the
                                              i
Table of Contents

Introduction                                                           1

       Objective                                                       1
       Background                                                      1
       Review of Internal Controls                                     3

Audit Results for the Intelligent Parking Lot Controller Project       4
      Project Properly Planned and Supported                           4
      Recovery Act Funds Received Timely                               4
      Initial Project Execution Adequate                               5
      Contractor Reported Required Information                         6
      Conclusion: Use of Recovery Act Funds Justified                  6

Audit Results for the Wind Turbine Project                            7
      Project Not Adequately Planned                                  7
      Recovery Act Funds Received Timely                              9
      Conclusion: Use of Recovery Act Funds Not Justified, However,
        Army Personnel Cancelled the Project                          9
      Management Comments on the Potential Monetary Benefits and
        Our Response                                                  9

Appendix. Scope and Methodology                                       11
     Use of Computer-Processed Data                                   11
     Use of Technical Assistance                                      12
     Prior Coverage                                                   12

Management Comments
     Office of the Deputy Under Secretary of Defense
      (Installations and Environment)                                 13
Introduction
Objective
Our overall objective was to evaluate DoD’s implementation of Public Law 111-5,
“American Recovery and Reinvestment Act of 2009,” February 17, 2009 (Recovery Act).
Specifically, we reviewed the planning, funding, initial project execution, and tracking
and reporting phases of Recovery Act Project 69413, “Facility Energy Improvements,”
and the planning and funding phases of Project 72955, “Wind Turbine and Photovoltaic
Panels” at Fort Wainwright, Fairbanks, Alaska. We determined whether the efforts of
personnel at the Directorate of Public Works (DPW) at Fort Wainwright and the project
execution office at United States Army Corps of Engineers (USACE)-Alaska District
complied with the Act’s requirements, Office of Management and Budget (OMB)
Memorandum M-09-10, “Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009,” February 18, 2009, and subsequent related guidance.

The Recovery Act and OMB guidance require projects to be monitored and reviewed.
For the purposes of this audit, we grouped these requirements in the following four
phases for each project: (1) planning, (2) funding, (3) initial project execution, and
(4) tracking and reporting. We did not review the initial project execution and tracking
and reporting phases for the “Wind Turbine and Photovoltaic Panels” project because the
project did not progress beyond the planning and funding phases. See the appendix for a
discussion of our scope and methodology.

Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent. Further, the Recovery Act states that the President and heads of
the Federal departments and agencies were to expend these funds as quickly as possible,
consistent with prudent management.

DoD received approximately $7.16 1 billion in Recovery Act funds for projects that
support the Act’s purposes. OMB Memorandum M-09-10 required DoD to develop
program plans. Included among those programs was the Energy Conservation
Investment Program (ECIP).



1
  DoD originally received about $7.4 billion; however, Public Law 111-226, Title III, “Rescissions,”
rescinded $260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for the
USACE Recovery Act civil works projects.


                                                    1
Energy Conservation Investment Program
The “American Recovery and Reinvestment Act of 2009, Department of Defense Energy
Conservation Investment Program Plan,” May 15, 2009, identified projects valued at
$120 million and funded through the “Military Construction-Recovery Act, Defense-
Wide” appropriation. The Deputy Under Secretary of Defense (Installations and
Environment) (DUSD (I&E)) centrally controls ECIP funding allocation on a project-by-
project basis. DoD personnel allocated $32.4 million for Army Recovery Act ECIP
projects, which included $2.19 million in planning and design funds to support the Army
Recovery Act ECIP projects. Of the $32.4 million, DoD personnel allocated
$1.95 million to Project 69413, “Facility Energy Improvements,” and $1.5 million to
Project 72955, “Wind Turbine and Photovoltaic Panels.”

The DoD Energy Managers Handbook defines a savings-to-investment ratio (SIR) as a
measure of a project’s economic performance. The SIR, a benefit-to-cost ratio in which
the benefits are primarily savings, expresses the relationship between the present value of
the savings over a study period to the present value of the investment costs. The SIR is a
useful means of ranking independent projects to guide allocations for limited investment
funding. According to the DoD Energy Managers Handbook, if a project’s SIR is 1.0 or
higher, the project is cost-effective.

The Recovery Act DoD ECIP Plan stated that the program historically averages more
than two dollars in life-cycle savings for every dollar invested. The Office of the
Assistant Secretary of Defense (Production and Logistics), “Energy Conservation
Investment Program Guidance,” March 17, 1993, states, “Projects must have a SIR
greater than 1.25 and a discounted payback period 2 of 10 years or less.”

Recovery Act Projects for Fort Wainwright Energy Conservation
Investment Program
Fort Wainwright originated as a cold weather test station and is now home to “America’s
Arctic Warriors,” the Army’s Northern Warfare Training Center. Project 69413,
“Facility Energy Improvements,” included installing intelligent parking lot controller 3
(IPLC) devices on 4,450 headbolt outlets 4 in parking lots throughout Fort Wainwright
and replacing lighting and ballasts in the vehicle maintenance facility, Building 3015,
with fluorescent lights and fixtures with motion sensors. For the purposes of this audit,
we will refer to Project 69413 as the IPLC project.

Black Rapids Training Center (the Center) is a remote location approximately 130 miles
from Fort Wainwright. The Center offers arctic, subarctic, and mountain training
environments. Project 72955, “Wind Turbine and Photovoltaic Panels,” included the



2
  The discounted payback period expresses results in time to recover investment costs. Savings are
discounted to their present value based on the discount rate.
3
  An IPLC is a smart power receptacle that measures temperature and wind chill and can be programmed to
automatically regulate the power flow to the receptacle to reduce electrical consumption.
4
  Headbolt outlets are the receptacles used to plug in vehicle engine heaters in parking lots.


                                                   2
installation of a wind turbine generator and photovoltaic panels to supply electricity at the
Center and the installation of transpired solar preheat panels on vehicle maintenance
facilities at Fort Wainwright. For the purposes of this audit, we will refer to Project
72955 as the wind turbine project.

United States Army Corps of Engineers-Alaska District
The USACE-Alaska District supported Fort Wainwright by providing services for
contracting and project management. These services included awarding contracts for
Recovery Act-funded projects and assigning project managers to oversee the contracted
work.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. We identified no internal control
weaknesses in the IPLC project but did identify an internal control weakness as defined
by DoD Instruction 5010.40 in the administration of the wind turbine project.
Specifically, the Army did not provide adequate internal controls over the planning
efforts for the wind turbine project. We discuss these issues in detail in the Audit Results
section on page 7. Because the Army cancelled the wind turbine project, no
recommendation is necessary to correct this weakness. We will provide a copy of the
report to the senior officials responsible for internal controls at the Army and at the
DUSD (I&E) Energy office.




                                             3
Audit Results for the Intelligent Parking Lot
Controller Project
Personnel at Fort Wainwright DPW and USACE-Alaska District ensured that the IPLC
project was properly planned and supported, and USACE-Alaska District personnel
received and applied Recovery Act funds for the project in accordance with OMB
guidance. Additionally, USACE-Alaska District personnel ensured that the contracting
actions for the IPLC project met Recovery Act requirements. Finally, personnel from the
USACE-Alaska District ensured that the contractor maintained transparency by reporting
this project to the www.recovery.gov Web site. As a result, DoD ensured that the use of
Recovery Act funds for the IPLC project was justified and clear and transparent to the
public.

Project Properly Planned and Supported
Personnel at Fort Wainwright DPW and USACE-Alaska District properly planned the
IPLC project and were able to provide supporting
documentation for the project costs. Documentation           Personnel at Fort
supporting costs dated back to 2006 and was updated          Wainwright DPW and
annually. Documentation included professional                USACE-Alaska District
engineering opinions about the project, utility rates at     properly planned the IPLC
Fort Wainwright, and vendor costing input. In April          project and were able to
2009, Fort Wainwright DPW personnel transferred              provide supporting
management of the IPLC project to the USACE-Alaska           documentation for the
District. During their review of the IPLC project,           project costs.
USACE-Alaska District engineers identified
deficiencies in the plans to apply and install the IPLCs. Engineers at the USACE-Alaska
District worked with personnel at the Fort Wainwright DPW to prioritize, validate, and
allocate the number and location of the IPLCs to each parking lot; resolve the installation
method unique to each location; and add requirements to install electrical grounding
mechanisms to each headbolt outlet. As a result, engineers revalidated the number and
location of IPLCs and recalculated the costs to include the additional installation
requirements.

Recovery Act Funds Received Timely
Personnel at the USACE-Alaska District received funds from the Office of the Under
Secretary of Defense (Comptroller) personnel in a timely fashion and in compliance with
OMB guidance. For the IPLC project, USACE-Alaska District received $166,425 of the
available $2.19 million allocated to “Planning & Design-Army ECIP projects” and cited
in the DoD ECIP Plan. Funding documents showed Comptroller personnel also
transferred $1.88 million in Recovery Act funds for construction to USACE-Alaska
District in October 2009. USACE-Alaska District contracting personnel obligated
$1.88 million to the project, which included $1.74 million for contract award and
$0.14 million for supervision, inspection and overhead costs. Contracting personnel
awarded contract W911KB-10-P-0001 on October 30, 2009. The DoD ECIP Plan


                                             4
initially listed the project at $1.95 million, which allowed approximately $70,000
($1.95 million minus $1.88 million) in potential bid savings. The Army ECIP program
manager and personnel from DUSD (I&E) are reallocating unused funds to other
Recovery Act ECIP projects. Finally, all funding documents properly cited Treasury
Appropriation Fund Symbol (TAFS) 97 0501, “Military Construction-Recovery Act,
Defense-Wide” appropriation.

Initial Project Execution Adequate
USACE-Alaska District personnel adequately performed initial project execution of the
IPLC project and properly reduced its scope in order to award the IPLC project.
Although the contract included only some of the required Recovery Act Federal
Acquisition Regulation (FAR) clauses, USACE-Alaska District contracting personnel
provided justification to support why certain other clauses did not apply.

Reduced Project Scope
Personnel at USACE-Alaska District awarded the IPLC project at a reduced scope, and
they adequately performed the project’s initial execution. To award the project, USACE-
Alaska District engineers segmented the Fort Wainwright parking lots into specific map
locations, including various numbers of IPLCs at each location. They prioritized each
location and allocated the work into six options for IPLCs and one option for lighting
replacement. Contracting personnel competitively solicited the project at the Federal
Business Opportunities (FBO) Web site, but when all of the proposals received were
higher than the programmed project amount cited in the DoD ECIP Plan, contracting
personnel restructured the acquisition strategy; they reallocated the number of IPLCs to
include eight options, as well as one option for the lighting replacement project. USACE
personnel properly posted the cancellation of the initial IPLC project requirements, the
project re-solicitation, and the contract award to the FBO Web site, and all FBO postings
properly identified the project as “Recovery.”

On October 30, 2009, USACE-Alaska District contracting personnel awarded the IPLC
project competitively on contract W911KB-10-P-0001 at a firm-fixed-price to TLC
General, Inc. TLC General, Inc. is a certified hub-zone small business and, based on
information from the Central Contractor Registration Web site, TLC General, Inc. was
properly registered and was not listed in the Excluded Parties List System. As awarded,
the project required installation of 4,028 IPLCs instead of the original 4,450 IPLCs, and
contracting personnel awarded no lighting replacement option.

Adequately Documented Justifications For Omitting Certain
Recovery Act Federal Acquisition Regulation Clauses
The IPLC contract included the applicable Recovery Act FAR clauses, and USACE-
Alaska District contracting personnel provided justification to support the exclusion of
the Buy American and Davis-Bacon Act clauses. Contracting personnel conducted
market research through two separate FBO postings and determined that the only
manufacturer of the IPLCs that met project requirements was a Canadian company. To
support exclusion of the Buy American clause, contracting personnel included a


                                            5
justification packet citing the research supporting the Canadian supplier and FAR
Clause 6.302-1, which states, “Only one responsible source and no other supplies or
services will satisfy agency requirements.”

Additionally, contracting personnel deemed that the Recovery Act Davis-Bacon clause
was not required in the IPLC contract because it did not apply to the task of installing
IPLCs. In the project files, contracting personnel justified and documented why the IPLC
installations were a contractor-provided service and not a “construction type activity.”
The justification cited FAR 37.101, which defines a service contract as a “contract that
directly engages the time and effort of a contractor whose primary purpose is to perform
an identifiable task rather than to furnish an end item of supply,” and FAR 2.101, in
which construction is defined as “construction, alteration, or repair … of buildings,
structures, or real property.” The Davis-Bacon Act clause discusses how contracts in
which the “U.S. is a party for construction, alteration, or repair of public buildings or
public works within the United States shall contain a clause that … no employee … shall
receive less than the prevailing wage rates.” Because IPLC installation is an identifiable
task, USACE personnel determined that the Recovery Act service contract clauses should
apply rather than the Recovery Act Davis-Bacon clauses. In addition to citing the service
contract clauses in the IPLC contract, USACE personnel included the wages for service
contracts in Alaska with the contract.

Contractor Reported Required Information
The contractor, TLC General, Inc., reported the required recipient Recovery Act
information. TLC General, Inc. reported the number of jobs, a description of quarterly
project activities, and the total award dollar value for the project to www.recovery.gov as
required by FAR 52.204-11 and correctly reported the TAFS code as 97 0501, “Military
Construction-Recovery Act, Defense-Wide.”

Conclusion: Use of Recovery Act Funds Justified
Personnel at Fort Wainwright DPW and USACE-Alaska District ensured that the
Recovery Act-funded IPLC project was properly planned, and USACE personnel
received and applied Recovery Act funds in a manner consistent with OMB guidance.
Additionally, USACE personnel ensured that contracting actions for the IPLC project met
Recovery Act requirements. Finally, USACE personnel ensured that the contractor
maintained transparency by reporting this project to the www.recovery.gov Web site. As
a result, DoD ensured that the use of Recovery Act funds for the IPLC project was
justified, clear, and transparent to the public.




                                             6
Audit Results for the Wind Turbine Project
Army personnel originally did not ensure that the wind turbine project was adequately
planned. This occurred because personnel at Fort Wainwright DPW failed both to
include all costs necessary to complete the project and to complete necessary wind
studies prior to submitting the project for consideration. As a result, DoD could not
ensure the wind turbine project was viable, and Recovery Act funds would be
appropriately used. By cancelling the project from the Recovery Act program, the Army
made $1.5 million in Recovery Act funds available for other Recovery Act ECIP
projects. Finally, USACE-Alaska District received Recovery Act funds for the project in
accordance with OMB guidance.

Project Not Adequately Planned
Army personnel did not ensure that the wind turbine project was adequately planned to
meet the SIR and payback criteria defined in the Recovery Act DoD ECIP Plan and did
not ensure the completion of wind studies before submitting DD Form 1391, “Military
Construction Project Data.” Personnel at Fort Wainwright DPW originally planned for
the wind turbine project to be executed using in-house resources in FY 2010. When the
project was selected to receive Recovery Act funding, however, the Army accelerated
execution from FY 2010 to FY 2009. Additionally, the Army required USACE-Alaska
District to assume responsibilities for project execution.

Escalating Costs Impacted Project Scope, Savings-to-
Investment Ratio, and Payback Period
Personnel from the Fort Wainwright DPW provided a DD Form 1391, May 7, 2009, for
the installation of a wind turbine and photovoltaic panels at the Center, as well as for
installation of transpired solar preheat panels at Fort Wainwright. They estimated project
costs at $1.5 million with a SIR of 2.0 and a payback period of 6.8 years.

Although engineers at the Fort Wainwright DPW provided some documentation to
support the project, USACE-Alaska District
personnel stated that the cost estimates were            In a September 23, 2009
incomplete, and personnel at the Fort Wainwright         estimate, engineers and
DPW did not consider all the costs necessary to          contracting personnel deleted
complete the project. To prepare the project for         the transpired solar preheat
solicitation and award, engineers at the USACE-          panels from the project and
Alaska District recreated and further refined            estimated completion of the
project costs necessary to complete the project. In      wind turbine and photovoltaic
a September 23, 2009 estimate, engineers and             panels at a cost of $4.4 million,
contracting personnel deleted the transpired solar       $2.9 million above the original
preheat panels from the project and estimated            $1.5 million cost estimate.
completion of the wind turbine and photovoltaic
panels at a cost of $4.4 million, $2.9 million above the original $1.5 million cost estimate.




                                             7
The Office of the Assistant Secretary of Defense (Production and Logistics), “Energy
Conservation Investment Program Guidance,” March 17, 1993, states “Projects must
have a SIR greater than 1.25 and a discounted payback period of 10 years or less” and
that “Military Departments should revalidate all projects prior to advertising to ensure
contemplated benefits will still accrue.” Although the engineers at the USACE-Alaska
District refined and revalidated the project requirements and costs prior to advertising,
Fort Wainwright DPW personnel were unable to provide revised SIR and life-cycle-cost
calculations. Due to the change in project scope, and escalating project costs, DoD
cannot ensure that payback periods and SIR calculations on the DD Form 1391 are
accurate and reliable or whether Army personnel appropriately selected the project for
Recovery Act funding.

Wind Study Not Performed Prior to Project Submission
Fort Wainwright DPW personnel did not ensure completion of a wind study before
submitting the DD Form 1391 for the project. The Center is located in an area with
mountains and valleys that could create enough wind turbulence to shut down a wind
turbine. USACE-Alaska District personnel stated that the industry standard was to
conduct a 1-year wind study to determine the best physical location for the wind turbine.
The study would also determine whether sufficient, consistent, and non-turbulent winds
were available to power the turbine.

Additionally, in 2008, the U.S. Army Installation and Management Command directed
Pacific Northwest National Laboratories to identify economically feasible opportunities
to generate electricity from renewable sources—that is, generation significant enough to
warrant connection to the grid or to contribute meaningfully to the Army’s aggressive
goals for renewable energy. As part of the “Renewable Energy Opportunities at Fort
Wainwright and Fort Greely, Alaska” study, Pacific Northwest National Laboratories was
to designate steps for implementing the project at the Center. The study specifically
identified a significant wind resource at the Center, one warranting further investigation
into the possibility of developing on-site wind power projects. Because of variations in
wind resources at the Center, the study recommends developing wind monitoring plans to
verify site-specific resources for project implementation. Moreover, the study
specifically identifies a 60-meter meteorological tower as the industry standard for
collecting data for a commercial-scale project. The meteorological tower is the most
accurate predictor of wind potential and, therefore, the best source for data. The findings
also stated that the period for gathering wind data should be, at a minimum, 1 year in
order to determine the true viability of the wind resource on site. The study’s findings
were available to the Army in draft format in March 2009, in time for incorporation into
the wind turbine project.

In September 2009, we discussed the absence of a wind study and its impact on the
feasibility of the project with Army personnel at Fort Wainwright DPW and USACE-
Alaska District. Additionally, in December 2009 and January 2010, the Army ECIP
manager and DUSD (I&E) personnel stated that they had expected a wind study to be
completed before receiving the DD Form 1391 project packages and were unaware this
was not the case for the wind turbine project. Given the Arctic conditions and probable


                                            8
wind turbulence at this location, a wind study is critical to ensure project viability.
Moreover, data from wind studies is helpful in calculating the expected overall energy
savings, thus influencing the SIR and payback period calculations for the wind turbine
project.

Cancellation of Wind Turbine Project
In February 2010, the Army ECIP manager initiated cancellation of the $1.5 million wind
turbine project from the Recovery Act program. The reprogramming documentation
cited that the project could not be awarded because wind studies would not be completed
in a timely manner. As part of their reprogramming action, Army officials identified
additional ECIP projects eligible for Recovery Act funding. The reprogramming action
was consistent with Office of the Under Secretary of Defense (Comptroller), “Project
Cost Variations during Execution of American Recovery and Reinvestment Act
Expenditure Plans for Infrastructure Investments,” May 7, 2009, and “Revision to Policy
Regarding Project Cost Variations during Execution of American Recovery and
Reinvestment Act Expenditure Plans for Infrastructure Investments,” January 11, 2010.

Recovery Act Funds Received Timely
Personnel at the USACE-Alaska District received funds for the wind turbine project from
the Office of the Under Secretary of Defense (Comptroller) personnel in a timely fashion
and in compliance with OMB guidance. This wind turbine project received $171,000 of
the $2.19 million allocated to “Planning & Design-Army ECIP projects” cited in the
Recovery Act DoD ECIP Plan. USACE-Alaska District personnel received these funds
through three funding authorization documents that properly identified a Recovery Act
designation. These documents correctly cited TAFS 97 0501, “Military Construction-
Recovery Act, Defense-Wide” appropriation. USACE-Alaska personnel never received
construction funds to execute the project.

Conclusion: Use of Recovery Act Funds Not Justified,
However, Army Personnel Cancelled the Project
Because Army personnel did not ensure the wind turbine
project was properly planned, cancellation of the project     ...cancellation of the
and subsequent reprogramming action undertaken by the         project and subsequent
Army ECIP manager were appropriate. The Army made             reprogramming action
approximately $1.5 million in Recovery Act funds              undertaken by the Army
available for other Recovery Act ECIP projects. Because       ECIP manager were
the Army cancelled this project from using Recovery Act       appropriate.
funds, we have no recommendations.

Management Comments on the Potential Monetary
Benefits and Our Response
The report made no recommendations; however, we requested comments from the
DUSD (I&E) who manages the DoD ECIP program on the potential monetary benefits of
$1.5 million derived from cancelling the wind turbine project.


                                            9
Deputy Under Secretary of Defense (Installations and
Environment)
The Director, Facilities Energy, DUSD (I&E), agreed with the report, and potential
monetary benefits of $1.5 million.

Our Response
The DUSD (I&E) comments are responsive. Therefore, we do not require additional
comments.




                                           10
Appendix. Scope and Methodology
We conducted this audit from August 2009 through December 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

The overall objective was to evaluate DoD’s implementation of plans for the Recovery
Act. To accomplish our objective, we audited the planning, funding, initial project
execution, and tracking and reporting of two Recovery Act ECIP projects at Fort
Wainwright to include the planning and design funds allocated to the projects.
Specifically, we determined whether:

           •   the selected projects were adequately planned to ensure the appropriate
               use of Recovery Act funds (Planning);
           •   funds were awarded and distributed in a prompt, fair, and reasonable
               manner (Funding);
           •   contracts awarded were transparent, competed, and contained required
               Recovery Act FAR clauses (Initial Project Execution); and
           •   recipients’ use of funds was transparent to the public and the benefits of
               the funds were clearly, accurately, and timely reported (Reporting).

We did not review the initial project execution and tracking and reporting phases for the
wind turbine project because the project was cancelled from the Recovery Act program
and did not progress beyond the planning and funding phases.

We interviewed personnel from the Fort Wainwright DPW, USACE-Alaska District,
Army ECIP office, and DUSD (I&E). We reviewed documentation including the official
contract files and the DD Forms 1391 for project requirements, justification, cost estimate
support, environmental analysis, and historical data that provided costing support. We
reviewed Federal, DoD, and Army guidance and compared this with our audit results.
Although we determined if the contractor reported in accordance with FAR 52.204-11,
we did not validate the data reported by the contractor to the www.Recovery.gov Web
site at this time. We plan to address the adequacy of recipient reporting in a future DoD
OIG report.

Use of Computer-Processed Data
We relied on computer-processed data from the FBO Web site and the Corps of
Engineers Financial Management System. FBO is a single, Government-wide point-of-
entry for Federal Government procurement opportunities. The Corps of Engineers
Financial Management System is USACE’s corporate Web-based automated information
system for managing and transacting financial and accounting business processes. We
compared data generated by each system with the DoD Expenditure Plans, funding


                                            11
authorization documents, project documentation, and contracting documentation to
support the audit conclusions. We determined that the data were sufficiently reliable for
our audit purposes.

Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, the Quantitative Methods and
Analysis Division of the DoD Office of Inspector General analyzed all DoD agency-
funded projects, locations, and contracting oversight organizations to assess the risk of
waste, fraud, and abuse associated with each. Quantitative Methods and Analysis
Division personnel selected most audit projects and locations using a modified Delphi
technique, which allowed them to quantify the risk based on expert auditor judgment, and
other quantitatively developed risk indicators. They used information collected from all
projects to update and improve the risk assessment model. Quantitative Methods and
Analysis Division personnel initially selected 83 projects with the highest risk rankings
with auditors choosing some additional projects at the selected locations. We
judgmentally selected the two ECIP projects at Fort Wainwright to provide additional
project coverage across the Recovery Act ECIP program.

Quantitative Methods and Analysis Division personnel did not use classical statistical
sampling techniques that would permit generalizing results to the total population
because there were too many potential variables with unknown parameters at the
beginning of this analysis. The predictive analytic techniques employed provided a basis
for logical coverage of Recovery Act dollars being expended, but also of types of projects
and types of locations across the Military Services, Defense agencies, State National
Guard units, and public works managed by the U.S. Army Corps of Engineers.

Prior Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            12
 Office of the Deputy Under Secretary of Defense
(Installations and Environment) Comments




                          OFFICE OF THE UNDER SECRETARY OF DEFENSE
                                            3000 DEFENSE PENTAGON
                                          WASHINGTON. DC 20301-3000



    ACQUJsn1ON .
    ~NOLOGY
   AND LOGIST1CS




                                                                                 JAN I 3 2011



         Dear _ _


                This lener provides the Office of the Deputy Under Secretary of Defense (Installations
         and Environment) response to the draft Inspector General report, Project No. D2009-DOOOLF-
         0245.002. "American Recovery and Reinvestment Act Projects-'Facility Energy Improvements'
         and 'Wind Turbine and Photovoltaic Panels' at Fon Wainwright, Alaska," dated December 6.
         2010. We concur with the overall report and have no additional comments. The repon correctly
         identifies that by canceling the wind and photo voltaic panels project at Fon Wainwright, S1.5
         million is available for beneficial use elsewhere within the ECIP program subject to OMB and
         DoD Recovery Act guidance.

                I appreciate the opportunity to respond to your draft. report and look forward to working
         with you in the future.


                                                     Sincerely,


                                                     91(~
                                                     Joseph K. Sikes
                                                     Director
                                                     Facilities Energy




                                                                      13
